TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Internal Revenue Service Databases
                  Continue to Be Susceptible to Penetration
                                  Attacks


                                       December 14, 2007

                              Reference Number: 2008-20-029




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.
 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute (whichever is applicable)
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           December 14, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER


 FROM:                 (for)   Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Internal Revenue Service Databases Continue to
                               Be Susceptible to Penetration Attacks (Audit # 200720017)

 This report presents the results of our review to determine whether databases used by Internal
 Revenue Service (IRS) computer applications are secure from exploitation by unauthorized
 individuals. This review was included in the Treasury Inspector General for Tax Administration
 Fiscal Year 2007 Annual Audit Plan and was part of the Information Systems Programs unit’s
 statutory requirements to annually review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 The IRS continues to have recurring information security weaknesses that make its databases
 susceptible to penetration attacks. Because the IRS stores its taxpayer, financial, and other data
 in more than 2,100 databases, attacks on these databases could result in taxpayer identity theft
 and fraud. Such attacks could also result in financial losses to the Federal Government.

 Synopsis
 Since March 2003, we have identified and reported significant weaknesses in IRS database
 security controls. Our previous reviews have demonstrated that control weaknesses could be
 exploited to gain access to sensitive taxpayer information and disrupt IRS computer operations.
 Although we did not exploit the vulnerabilities during this review, we found the security
 weaknesses remain. We are very concerned that these high-risk weaknesses continue to exist
 and that greater efforts have not been taken to correct them.
 To ease the installation process, vendors typically ship database software with installation
 accounts that contain the same (default) logon and same password. In some cases, the password
                Internal Revenue Service Databases Continue to Be Susceptible
                                    to Penetration Attacks



is blank. The IRS requires that these passwords be immediately changed after database
installation. During this review, we tested more databases than in prior reviews for the existence
of default or blank passwords for installation accounts. Based on our scans of IRS networks, we
determined that 11 percent of the approximately 1,900 databases scanned had 1 or more
installation accounts with a default or blank password. A total of 369 installation accounts had
default or blank passwords; 26 contained powerful database administrator privileges. Malicious
users can exploit accounts with default or blank passwords to steal taxpayer identities and carry
out fraud schemes. Databases found with default or blank passwords during our scans include
those that contain personally identifiable tax information.
These password weaknesses continue to exist because of deficiencies in the IRS’ process for
identifying and resolving them. The IRS Computer Security Incident Response Center conducts
monthly scans to detect default and blank database passwords. While the Center identifies
password weaknesses on the systems it scans, it does not adequately scan all IRS databases. The
process for reviewing these scan results has resulted in the correction of many weaknesses.
However, we identified deficiencies in the process that hamper the effectiveness of the IRS team
tasked with correcting these weaknesses.
Changing default and blank passwords after database installation is a fundamental security rule
that all database administrators should know to follow. We have repeatedly apprised the IRS of
this issue, and it has taken actions to publish standards and identify and correct these password
weaknesses. Because these actions have resulted in only limited success, we conclude that
default and blank database passwords continue to exist because managers and employees are not
taking seriously their responsibilities for implementing secure databases. Consequently, the IRS
needs to take stronger actions to ensure employees take these responsibilities seriously.
We also found that a majority of the IRS databases scanned do not have the latest software
updates (patches) installed. Our scans found 65 percent of the databases scanned needed to be
updated, with more than 300 databases being outdated from 11 months to 20 months. As a
result, outdated IRS databases were collectively susceptible to nearly 40,000 database
vulnerabilities, one-half of which are considered high risk. These vulnerabilities include those
used for common penetration attacks. IRS standard database security configurations require that
database software be kept current with the most recent software updates. These updates protect
computer software from emerging vulnerabilities that can be used to attack it and gain access to
its data.
Although the IRS is adequately identifying appropriate patches for its databases, installation of
the patches is not currently being monitored and there is no automated tool available to detect
whether patches have been installed.




                                                                                                    2
               Internal Revenue Service Databases Continue to Be Susceptible
                                   to Penetration Attacks




Recommendations
We recommended the Chief Information Officer ensure security training is provided to
employees with key security responsibilities and coordinate with other heads of office to
emphasize the need for disciplinary actions for managers and employees who fail to fulfill their
security responsibilities. The Chief Information Officer should improve the process for
identifying and correcting accounts with blank or default passwords by expanding the scanning
criteria, analyzing the Computer Security Incident Response Center scan results, and changing
the methodology for determining repeat findings. In addition, the Chief Information Officer
should establish a process for monitoring database patch installations and updates to current
versions of database software.

Response
IRS management agreed with all of our recommendations. The Associate Chief Information
Officer, Cybersecurity, will update the security training curriculum and courseware to
specifically include the need to change default and blank passwords and will prepare a
memorandum reemphasizing the need for disciplinary action for managers and employees who
are not fulfilling their security responsibilities. The Computer Security Incident Response
Center will implement and expand a quarterly database scanning component to its vulnerability
management program. The Cybersecurity organization will expand scanning efforts to include
computer names and other identifiable information needed to efficiently resolve password
weaknesses, disseminate scan results to appropriate parties, trend scan results to detect repeat
offenders, track and report quarterly on the status to those employees responsible for correcting
default and blank passwords, and purchase database vulnerability scanning software to detect the
absence of needed security patches on IRS databases. Management’s complete response to the
draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                   3
                     Internal Revenue Service Databases Continue to Be Susceptible
                                         to Penetration Attacks




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Database Accounts With Default or Blank Passwords Continue
          to Be Found...................................................................................................Page 2
                    Recommendations 1 through 3:...........................................Page 6

                    Recommendation 4:..........................................................Page 7

          Databases Are Not Adequately Updated to Protect Against Emerging
          Vulnerabilities...............................................................................................Page 7
                    Recommendation 5:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Prior Penetration Test Reports .............................................Page 14
          Appendix V – Additional Password Test Information .................................Page 15
          Appendix VI – Additional Patch Test Information.......................................Page 17
          Appendix VII – Management’s Response to the Draft Report.....................Page 21
                 Internal Revenue Service Databases Continue to Be Susceptible
                                     to Penetration Attacks




                                          Background

The Internal Revenue Service (IRS) is responsible for maintaining security over computer
systems that process more than $2 trillion in receipts and $11 billion in expenditures. These
systems must maintain the privacy of tax information for about 134 million taxpayers. The IRS
stores its taxpayer, financial, and other data in more than 2,100 databases. Due to the sensitivity
of these data, the IRS could be a target for malicious users intent on committing identity theft
and fraud. Theft of the data on these systems could also result in financial losses to the Federal
Government. Because the IRS has many employees and contractors with access to its networks,
it is vulnerable to insider theft of its confidential data.
While computer security is typically applied in layers around a computer system, the last and
possibly best line of defense in protecting IRS data are database security controls. However, our
prior audits have identified significant weaknesses in IRS database security controls. Most
recently, we reported that standard database security configurations have not been effectively
implemented on IRS databases.1 In addition, our previous penetration tests have demonstrated
that control weaknesses could be exploited to gain access to sensitive taxpayer information and
disrupt IRS computer operations.2
We conducted this review to determine whether two key control weaknesses identified in our
September 2005 penetration test report had been corrected. We tested more databases than in
our previous penetration tests for the existence of default or blank passwords for installation
accounts, but we did not attempt to exploit the weaknesses. This review was performed at the
IRS National Headquarters in Washington, D.C., in the Offices of the Chief Information Officer
during the period May through August 2007.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




1
  Standard Database Security Configurations Are Adequate, Although Much Work Is Needed to Ensure Proper
Implementation (Reference Number 2007-20-129, dated August 22, 2007).
2
  See Appendix IV for the list of prior penetration test reports.
                                                                                                     Page 1
                Internal Revenue Service Databases Continue to Be Susceptible
                                    to Penetration Attacks



The actions taken to date have not been sufficient because the IRS continues to have difficulty
ensuring default and blank database passwords are not used. We scanned IRS networks and
determined that 11 percent of the approximately 1,900 databases scanned had 1 or more
installation accounts with default or blank passwords. We found a total of 369 installation
accounts with default or blank passwords. Of these, 26 accounts had powerful database
administrator privileges. Appendix V provides additional details on the results of our tests.
Malicious users can exploit accounts with default or blank passwords to steal taxpayer identities
and carry out fraud schemes. In addition, because multiple users can use the accounts, it is
difficult to establish accountability for actions taken. For production systems, application
developers can exploit default or blank passwords to access production databases for their
application. Once inside, developers can make changes to production databases and applications
that are unauthorized and untested, resulting in unexpected consequences such as breaking
application functionality or preventing its use.
While we did not attempt to exploit default or blank passwords to gain access to IRS databases
in this review, attempts in our previous penetration audits have been successful. In the
September 2005 penetration test report, database administrator accounts with default or blank
passwords were used to gain access to employee, taxpayer, and corporate tax forms. We have
also demonstrated in the prior penetration reports that, once access is gained to the administrative
accounts for a database, a malicious user can elevate those privileges to other databases and
operating systems, gaining access to even more taxpayer accounts. Accordingly, the IRS should
have no tolerance for accounts with default and blank passwords.
We attempted to associate IRS applications with the databases we found to assess the effect on
the IRS in the event these applications were compromised. Using information obtained during
our scans and available IRS resources, we were able to identify applications for less than
one-half of the databases found. On May 25, 2007, we asked the IRS to identify the remaining
applications and confirm the applications we were able to identify through research. However,
the IRS has been unable to fully provide this information, most likely because it does not have a
comprehensive source of information for its applications and their associated databases. Some of
the applications we were able to identify with default or blank database passwords are shown in
Table 1.




                                                                                             Page 3
               Internal Revenue Service Databases Continue to Be Susceptible
                                   to Penetration Attacks



   •   Insufficient Information: Scan results forwarded by the CSIRC do not include all
       information needed to timely identify the computers on which the weaknesses were
       found. In particular, computer names are not included, only network addresses. Because
       network addresses can change, computer names are also needed.
Changing default and blank passwords after database installation is a fundamental security rule
that all database administrators should know to follow. We have repeatedly apprised the IRS of
this issue. The IRS has published standard database security configuration standards addressing
this weakness and established processes for identifying and correcting installation default
password weaknesses. Because these actions have resulted in only limited success in resolving
this issue, we conclude that default and blank database passwords continue to exist in part
because managers and employees are not taking seriously their responsibilities for implementing
secure databases. Consequently, the IRS needs to take stronger actions.

Recommendations
The Chief Information Officer should:
Recommendation 1: Implement the previously stated corrective action to identify employees
with key security responsibilities and provide security training to these employees, specifically
on default and blank passwords.
       Management’s Response: IRS management agreed with this recommendation. The
       Associate Chief Information Officer, Cybersecurity, will update the existing security
       training curriculum and courseware to specifically include the need to change default and
       blank passwords.
Recommendation 2: Coordinate with other heads of office to emphasize the need for
disciplinary actions for managers and employees who are not fulfilling their security
responsibilities, as evidenced by repeat findings of failure to comply with IRS security
configuration requirements for servers, databases, and other computing platforms. Specific
emphasis is needed to ensure default and blank passwords are removed for database
administrator accounts placed into operation.
       Management’s Response: IRS management agreed with this recommendation. The
       Associate Chief Information Officer, Cybersecurity, will prepare a memorandum
       reemphasizing the need for disciplinary action, as appropriate, for managers and
       employees who are not fulfilling their security responsibilities.
Recommendation 3: Expand the criteria used for scanning IRS databases for the presence of
administrator accounts with default or blank passwords. These criteria should encompass
additional database software used by the IRS, a broader range of account and password
combinations, and additional ports in which databases can be accessed. In addition, CSIRC scan


                                                                                          Page 6
                   Internal Revenue Service Databases Continue to Be Susceptible
                                       to Penetration Attacks



results should be expanded to include computer names and other identifiable information needed
to more quickly resolve password weaknesses.
         Management’s Response: IRS management agreed with this recommendation. The
         Associate Chief Information Officer, Cybersecurity, will implement and expand a
         quarterly database scanning component to the vulnerability management program. The
         Cybersecurity organization will expand scan efforts to include computer names and other
         identifiable information needed to efficiently resolve password weaknesses. In the near
         term, the Cybersecurity organization will purchase the technology, establish processes for
         conducting scans, and expand parameters of current testing capabilities.
Recommendation 4: Ensure the employees responsible for correcting default and blank
passwords directly review the CSIRC scan results. In addition, the methodology for determining
repeat findings should be modified to include running totals for computers identified on multiple
scans.
         Management’s Response: IRS management agreed with this recommendation. The
         Associate Chief Information Officer, Cybersecurity, will ensure dissemination of scan
         results to appropriate parties and trending of scan results to detect repeat offenders. The
         Cybersecurity organization will also track and report quarterly on the status to those
         employees responsible for correcting default and blank passwords. Until the solution is
         fully implemented, it will purchase the technology and establish processes for conducting
         and reviewing scans.

Databases Are Not Adequately Updated to Protect Against Emerging
Vulnerabilities
In the September 2005 penetration test report, we identified computers susceptible to several
high-risk operating system, database, and web server attacks. In some instances, operating
system vulnerabilities were used to gain access to the computer, providing full access to all of
the computer files. The computers were susceptible because software updates to protect against
the vulnerabilities were not installed. Some computers were also found to be running outdated
versions of the operating system. We also previously reported weaknesses with the IRS’
software patching process,3 although database software was not specifically assessed.4 Given the
findings in these prior reports, we focused this review on assessing how susceptible IRS
databases were to database-specific vulnerabilities.



3
  A patch is a fix of a design flaw in a computer program. Patches must be installed or applied to the appropriate
computer for the flaw to be corrected.
4
  Uninstalled Computer Security Patches Continue to Put Computer Systems at Risk (Reference
Number 2006-20-167, dated September 21, 2006).
                                                                                                             Page 7
                     Internal Revenue Service Databases Continue to Be Susceptible
                                         to Penetration Attacks



IRS standard database security configurations specify that database software should be kept
current with the most recent software updates. These updates protect computer software from
emerging vulnerabilities that can be used to attack it and gain access to its data. Updates can be
provided in the form of a patch, which fixes a specific vulnerability, or by installing a new
software version.
Our scans of the IRS network found that 1,242 (65 percent) of the nearly 1,900 databases
scanned need to be updated. These databases were not operating at the current database software
version as of March 2007, the date our software scanner was last updated. Because our scans
were conducted in May 2007, these databases were outdated for at least 2 months, with more
than 300 databases found to be outdated from 11 months to 20 months.
In addition, over one-third of the databases’ versions were so out of date that the manufacturer
no longer provides security patches or other updates. Our scans found 45 outdated database
versions for the 5 types of database software we tested. Appendix VI provides additional details
on the results of our tests.
As a result, outdated IRS databases were collectively susceptible to nearly 40,000 database
vulnerabilities, one-half of which are considered high risk. These vulnerabilities include those
used for common penetration attacks.5 Malicious users could use one or more of these attack
methods to gain access to IRS databases, potentially providing unauthorized access to taxpayer
information, corrupting data, and shutting down the databases.
We reviewed the IRS process for identifying patches and monitoring their implementation. The
IRS is adequately identifying database patches for its database software. The CSIRC is primarily
responsible for identifying available patches and notifying IRS functions of these patches and
related vulnerabilities. We reviewed the CSIRC patch inventory and found it adequately
identified current patches for the database software used by the IRS.
However, installation of database patches is not currently being monitored. The CSIRC requires
in its critical patch advisories that persons responsible for patching affected systems report the
status of patch installation to the CSIRC. However, CSIRC personnel informed us they do not
receive status information on database patch installations. This may be in part due to the lack of
notice of this requirement or method for reporting patch status on the CSIRC’s web site. The
CSIRC has not aggressively followed up with those organizations required to implement patches.
In addition, automated tools are not available to detect whether database patches or current
software versions have been implemented. The IRS does track the status of patches for computer
operating systems. However, the scans are able to identify patches only for specific operating
systems, not databases.



5
    See Appendix VI for descriptions of these attack methods.
                                                                                            Page 8
               Internal Revenue Service Databases Continue to Be Susceptible
                                   to Penetration Attacks



The process of implementing database updates in the IRS is complex because many IRS
organizations are involved in the process. Therefore, due to the amount of testing required to
identify specific reasons why updates are not installed, we plan to further examine the processes
for updating database software in our Fiscal Year 2008 audits.
In general, though, we believe one of the primary reasons why databases are not updated is
reluctance by administrators to install patches because of a concern that they may otherwise
impair the application being patched. In our September 2006 patching report, we reported a
similar reluctance for installation of operating system patches.

Recommendation
Recommendation 5: The Chief Information Officer should establish a process for monitoring
database patch installations and updates to current versions of database software. This process
should make use of automated scans or other tools where possible to verify the patches and
updates are installed.
       Management’s Response: IRS management agreed with this recommendation. The
       Cybersecurity organization will purchase database vulnerability scanning software to
       detect the absence of needed security patches on IRS databases. Until the solution has
       been fully implemented, it will use patch advisories to reemphasize the methods for
       reporting patch status to the CSIRC.




                                                                                           Page 9
                  Internal Revenue Service Databases Continue to Be Susceptible
                                      to Penetration Attacks



         C. Determined whether causes identified in the report Uninstalled Computer Security
            Patches Continue to Put Computer Systems at Risk (Reference Number 2006-20-167,
            dated September 21, 2006) applied to database patching issues.1 We reviewed the
            IRS process for identifying database software updates and monitoring their
            implementation. We did not review the process for implementing software updates
            due to the complexity of the process for implementing databases and the numerous
            IRS organizations involved. Therefore, due to the amount of testing required to
            identify specific reasons why updates are not installed, we plan to further examine the
            processes for updating database software in our Fiscal Year 2008 audits.
         D. Determined whether blank or default passwords have been previously identified and
            reported by the CSIRC.
V.       Assessed the effect of the exploitable vulnerabilities found.
         A. Assessed the access levels for accounts found to have blank or default passwords.
         B. Assessed the severity of the databases that had not been adequately updated.
         C. Identified the IRS business risk by identifying the applications associated with
            vulnerable databases.




1
 A patch is a fix of a design flaw in a computer program. Patches must be installed or applied to the appropriate
computer for the flaw to be corrected.
                                                                                                           Page 11
               Internal Revenue Service Databases Continue to Be Susceptible
                                   to Penetration Attacks



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Michelle Griffin, Audit Manager
Michael Howard, Lead Auditor
Charles Ekunwe, Senior Auditor
Jacqueline Nguyen, Senior Auditor
Stasha Smith, Senior Auditor




                                                                                     Page 12
              Internal Revenue Service Databases Continue to Be Susceptible
                                  to Penetration Attacks



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Information Officer OS:CIO
       Director, Program Oversight OS:CIO:SM:PO




                                                                       Page 13
               Internal Revenue Service Databases Continue to Be Susceptible
                                   to Penetration Attacks



                                                                                 Appendix IV

                     Prior Penetration Test Reports

This report is the fourth since March 2003 to identify weaknesses resulting from penetration tests
of IRS networks and computer systems. The prior reports are:
   •   Internal Penetration Test of the Internal Revenue Service’s Networked Computer Systems
       (Reference Number 2005-20-144, dated September 2005).
   •   Penetration Test of Internal Revenue Service Computer Systems (Reference
       Number 2004-20-073, dated April 2004).
   •   Penetration Test of Internal Revenue Service Computer Systems (Reference
       Number 2003-20-082, dated March 2003).




                                                                                          Page 14
                  Internal Revenue Service Databases Continue to Be Susceptible
                                      to Penetration Attacks



                 Table 2: Networks in Which Databases Were Found With
                              Blank and Default Passwords
                                   Databases Found
                                                              Databases         Percentage With Blank and
           Network                  With Blank and
                                                               Tested               Default Passwords
                                   Default Passwords
 IRS main network                          196                   1,745                      11.2%
 Chief Counsel                               2                    52                        3.8%
 Criminal Investigation                      0                    61                        0.0%
 Totals                                    198                   1,858                     10.7%
Source: Treasury Inspector General for Tax Administration assessment of selected IRS databases using data
collected from scans of IRS databases.

Our scans found installation database accounts with default and blank passwords on production
and nonproduction databases. Nonproduction databases include those used for development of
applications and, in a few instances, for building databases. While nonproduction databases
generally do not store taxpayer information, blank or default passwords could still be exploited
to obtain sensitive information such as business rules and application programs.




                                                                                                       Page 16
            Internal Revenue Service Databases Continue to Be Susceptible
                                to Penetration Attacks



•   Buffer Overflow: This technique exploits databases by sending more information to the
    database than expected, thus forcing the additional data to be stored in another part of the
    computer’s memory. If this memory permits execution of computer commands and the
    excess data contain database or computer instructions, then an attacker can run malicious
    commands to gain access to the database.
•   SQL Injection: This technique is used to manipulate web sites into sending SQL queries
    to a database to alter, insert, or delete data in a database.
•   Privilege Escalation: This technique is used by an attacker to change the privilege level
    of a database process and take control of that process to bypass security controls.




                                                                                        Page 20
   Internal Revenue Service Databases Continue to Be Susceptible
                       to Penetration Attacks



                                                   Appendix VII

Management’s Response to the Draft Report




                                                          Page 21
Internal Revenue Service Databases Continue to Be Susceptible
                    to Penetration Attacks




                                                       Page 22
Internal Revenue Service Databases Continue to Be Susceptible
                    to Penetration Attacks




                                                       Page 23
Internal Revenue Service Databases Continue to Be Susceptible
                    to Penetration Attacks




                                                       Page 24
